         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Examination Report
Action for a Better Community, Inc. –
Weatherization Assistance Program
Funds Provided by the American
Recovery and Reinvestment Act of
2009




OAS-RA-11-21                      September 2011
                                 Department of Energy
                                   Washington, DC 20585
                                      September 30, 2011


MEMORANDUM FOR THE ACTING ASSISTANT SECRETARY FOR ENERGY
               EFFICIENCY AND RENEWABLE ENERGY



FROM:                   Rickey R. Hass
                        Deputy Inspector General
                           for Audits and Inspections
                        Office of Inspector General

SUBJECT:                INFORMATION: Examination Report on "Action for a Better
                        Community, Inc. − Weatherization Assistance Program Funds Provided
                        by the American Recovery and Reinvestment Act of 2009"
                        Audit Report Number: OAS-RA-11-21

INTRODUCTION AND OBJECTIVE

The attached report presents the results of an examination of Action for a Better Community's
(ABC), implementation of the Weatherization Assistance Program (Weatherization Program).
The Office of Inspector General (OIG) contracted with an independent certified public
accounting firm, Otis & Associates, PC (Otis), to express an opinion on ABC's compliance with
Federal and State laws, regulations and program guidelines applicable to the Weatherization
Program. ABC, located in Rochester, New York, is a sub-recipient of the Department's
Recovery Act Weatherization funding for the State of New York.

The Recovery Act was enacted to promote economic prosperity through job creation and
encourage investment in the Nation's energy future. As part of the Recovery Act, the
Weatherization Program received $5 billion to reduce energy consumption for low-income
households through energy efficient upgrades. The State of New York received $394 million in
Weatherization Program Recovery Act grant funding, of which $7.45 million was allocated to
ABC. The State of New York's Division of Housing and Community Renewal was responsible
for administering Weatherization Program grants, including funds provided to ABC.

OBSERVATIONS AND CONCLUSIONS

Otis expressed the opinion that except for the weaknesses described in its report, ABC complied
in all material respects with the requirements and guidelines relative to the Weatherization
Program for the period July 1, 2009 to December 31, 2010. Specifically, the examination found
that ABC had not:

   •   Performed adequate weatherization services on five of the nine single-family homes
       selected for review;

   •   Ensured compliance with State of New York policies and procedures related to
       purchasing;
                                               2


   •   Deposited or maintained advance funding received from the Weatherization Program in
       an interest bearing account, as required by Federal regulation;

   •   Maintained adequate segregation of duties in the process for determining owner/occupant
       eligibility for receiving weatherization services;

   •   Maintained documentation to ensure homes selected for weatherization had not been
       weatherized after September 30, 1994, with Department Weatherization Program funds;
       and,

   •   Maintained documentation supporting authorization and approval of reimbursements.

The report makes recommendations to ABC to improve the administration of its Weatherization
Program. ABC provided responses that expressed agreement with most of the recommendations,
and provided planned and ongoing actions to address the issues identified. ABC management
disagreed with the finding regarding interest-bearing accounts, contending they were in
compliance with New York State policies and procedures. We discussed the issue with State of
New York officials who told us they will revise their Policy and Procedure Manual to require
advances be maintained in interest bearing accounts. In addition to the comments from PEACE,
the New York State DHCR provided a response generally concurring with the audit findings and
recommendations. DHCR's comments which addressed other ongoing Weatherization Program
examinations are included in their entirety in Attachment 2.

RECOMMENDATION

As part of its responsibilities for managing the Weatherization Program, we recommend the
Acting Assistant Secretary for Energy Efficiency and Renewable Energy:

    1. Ensure appropriate action is taken by the State of New York to improve administration
       of Recovery Act Weatherization Program funds at Action for a Better Community, Inc.

DEPARTMENT COMMENTS AND AUDITOR RESPONSE

We received comments on an official draft report from the Deputy Assistant Secretary for
Energy Efficiency and Renewable Energy stating that ABC will be asked to make a number of
improvements designed to resolve the identified issues. Additionally, the Department of
Energy's (Department) Project Officer and/or Contract Specialist will monitor the progress of
ABC during the quarterly review of the Grantee and follow-up will continue until all
recommendations have been implemented. The Department's comments are included in their
entirety in Attachment 3.

The Department's comments are responsive to our recommendation.
                                                3


EXAMINATION-LEVEL REVIEW

Otis conducted its examination in accordance with attestation standards established by the
American Institute of Certified Public Accountants as well as those additional standards
contained in Government Auditing Standards, issued by the Comptroller General of the United
States. The examination-level procedures included gaining an understanding of ABC's policies
and procedures, and reviewing applicable Weatherization Program documentation. The
procedures also included an analysis of inspection results, records of corrective actions and re-
inspections of completed homes/units to ensure any failures were properly corrected. Finally, an
analysis of associated cost data was performed to test the appropriateness of payments.

OIG monitored the progress of the examination and reviewed the report and related
documentation. Our review disclosed no instances where Otis did not comply, in all material
respects, with the attestation requirements. Otis is responsible for the attached report dated
September 27, 2011, and the conclusions expressed in the report.

Attachment

cc: Deputy Secretary
    Associate Deputy Secretary
    Acting Under Secretary for Energy
    Chief of Staff
                                                      Attachment 1


 Report on Examination Level Attestation Engagement

                         Of

         Action for A Better Community, Inc.

Recovery Act Weatherization Assistance Program Funds




    Performed for the U.S. Department of Energy,
            Office of Inspector General

                       Under

          Contract Number: DE-IG0000018
           Work Order Number: 2010-07


                         By


               Otis and Associates, PC


                 September 27, 2011
                                                                                                        Attachment 1 (continued)




                                                       Table of Contents

Section                                                                                                                       Page

I.       Independent Accountants’ Report............................................................................1

II.      Background ..............................................................................................................2

III      Classification of Findings ........................................................................................4

IV.      Summary of Findings ...............................................................................................5

V.       Material Weaknesses ..............................................................................................6

VI.      Significant Deficiencies ...........................................................................................8

VII.     Advisory Comments ..............................................................................................10

VIII. Grantee’s Response (Full Text) ..............................................................................13
                                                                       Attachment 1 (continued)


                       INDEPENDENT ACCOUNTANTS’ REPORT


To: Inspector General
    U.S. Department of Energy

We have examined Action for A Better Community, Inc.’s compliance with Federal and State
laws and regulations, and guidelines applicable to the Weatherization Assistance Program funded
by the American Recovery and Reinvestment Act of 2009. Action for A Better Community,
Inc., is responsible for operating the Weatherization Assistance Program in compliance with
these laws and regulations, and Program guidelines. Our responsibility is to express an opinion
based on our examination.

Our examination was conducted in accordance with attestation standards established by the
American Institute of Certified Public Accountants, and the Comptroller General of the United
States; and, accordingly, included examining, on a test basis, evidence supporting management’s
compliance with relevant American Recovery and Reinvestment Act of 2009 Weatherization
Assistance Program guidelines; Federal and State laws and regulations; and performing such
other procedures as we considered necessary in the circumstances. We believe that our
examination provides a reasonable basis for our opinion.

Because of the inherent limitations in any internal control structure or financial management
system, noncompliance due to error or fraud may occur and not be detected. Also, projections of
any evaluation of compliance to future periods are subject to the risk that the internal control
structure or financial management system may become inadequate because of changes in
conditions, or that the degree of compliance with the policies and procedures may deteriorate.

In our opinion, except for the weaknesses described in Sections V and VI of this report, Action
for A Better Community, Inc., complied, in all material respects, with the aforementioned
requirements and guidelines, relative to the Weatherization Assistance Program funded by the
American Recovery and Reinvestment Act of 2009 for the period July 1, 2009, through
December 31, 2010.




Otis and Associates, PC
Takoma Park, MD

March 25, 2011
                                                                       Attachment 1 (continued)


                               SECTION II - BACKGROUND

The American Recovery and Reinvestment Act of 2009 (Recovery Act) was signed into law on
February 17, 2009. The Act authorizes funding to various economic sectors and U.S. Federal
departments. The Weatherization Assistance Program (Weatherization Program), under the U.S.
Department of Energy (Department), received $5 billion of funding to achieve the purposes set
forth in the Act, including the preservation and creation of jobs, promotion of economic recovery
and reducing energy consumption.

The Department’s Weatherization Program objective is to increase the energy efficiency of
dwellings owned or occupied by low-income persons, reduce their total expenditures on energy,
and improve their health and safety. The Department has a special interest in addressing these
needs for low-income persons, who are particularly vulnerable, such as the elderly, disabled
persons, and families with children, as well as those with high energy usage and high energy
burdens. The Weatherization Program is a categorical formula grant program administered by
the Department, under a regulatory framework laid out in 10 CFR Part 440, Weatherization
Assistance for Low-Income Persons. The Recovery Act made significant changes to the grant
program administered by the Department. For example, the average per unit cost of
weatherizing a home/unit was increased from $2,500 under the Program, to $6,500 under the
Recovery Act.

The Department’s Office of Inspector General (OIG) contracted with Otis and Associates, PC to
perform an Examination Level Attestation engagement on the Recovery Act Weatherization
Assistance Program services provided by the State of New York’s sub-grantees. Action for A
Better Community, Inc., (ABC) is one of four sub-grantees selected for review by the
Department’s OIG.

Under the Recovery Act, the State of New York’s Division of Housing and Community Renewal
(DHCR) received an allocation of approximately $394 million from the Department, for the
Weatherization Program. DHCR then allocated about $7.45 million of this amount to ABC.

ABC is a not-for-profit organization, registered in the State of New York. The organization
employs 370 full-time and 13 part-time employees. ABC was incorporated in 1964, as a
Community Action Agency in Rochester County and has developed and implemented a
multitude of Federal and State programs, using public sector funds.

According to the contract with the State of New York, ABC is required to weatherize a total of
1,037 homes/units between July 1, 2009 and September 30, 2011 under the Recovery Act
Weatherization Program. As of December 31, 2010, ABC had weatherized 290 units, at a total
cost of $2,627,231. Of the units completed, 114 units were in 14 multi-family buildings.




                                                                                                 2
                                                                     Attachment 1 (continued)


The following tables summarize the Weatherization Program’s financial data:

PROGRAM FUNDS ALLOCATED TO ABC BY THE STATE OF NEW YORK:

                                        Production
Contract             Amount                  Goal Completed
C092242               $ 4,590,472              639
Amendment 1           $ 2,855,153              398
Total                 $ 7,445,625            1,037 290

PROGRAM COSTS INCURRED BY ABC AS OF DECEMBER 31, 2010

Expense Category                                    Amount
Direct Material                                 $ 624,714
Direct labor                                    $ 1,345,526
Program Support                                 $ 445,417
Liability Insurance                             $     41,420
Financial Audit                                 $     10,589
Training and Technical Assistance               $     34,740
Administration                                  $ 124,825
Total                                           $ 2,627, 231

PROGRAM FUNDS RECEIVED BY ABC AS OF DECEMBER 31, 2010

Fund Description                             Amount
Initial Advance                            $1,147,618
Monthly Cost Reimbursements                $1,987,401
Total                                      $3,135,019




                                                                                           3
                                                                           Attachment 1 (continued)


                      SECTION III - CLASSIFICATION OF FINDINGS

DEFINITIONS

Each finding is categorized as a Material Weakness, Significant Deficiency, or Advisory
Comment, as defined below, for the purposes of this examination:

Material Weakness

A material weakness is a significant deficiency, or combination of significant deficiencies, that
results in more than a remote likelihood that a material misstatement of the subject matter will
not be prevented or detected.

Significant Deficiency

A significant deficiency is a deficiency in internal control, or combination of deficiencies, that
could adversely affect ABC’s ability to initiate, authorize, record, process, or report data reliably,
in accordance with the applicable criteria or framework, such that there is more than a remote
likelihood that a misstatement of the subject matter that is more than inconsequential will not be
prevented or detected.

Advisory Comments

An advisory comment represents a control deficiency that is not significant enough to adversely
affect ABC’s ability to record, process, summarize, and report data reliably.




                                                                                                    4
                                                                     Attachment 1 (continued)


                       SECTION IV - SUMMARY OF FINDINGS

Finding 1:   Substandard weatherization services may have been provided by ABC - Material
             Weakness

Finding 2:   Purchases made with Program funds did not comply with the State of New York’s
             policies and procedures - Significant Deficiency

Finding 3:   Non-interest-bearing account was maintained for Program funds - Significant
             Deficiency

Finding 4:   Lack of adequate segregation of duties in the process for determining
             owner/occupant eligibility for weatherization - Advisory Comment

Finding 5:   Documentation was not maintained to support that the homes/units selected for
             weatherization had not been weatherized after September 30, 1994 with
             Department funds - Advisory Comment

Finding 6:   Documentation supporting authorization and approval of reimbursements was not
             maintained - Advisory Comment




                                                                                             5
                                                                        Attachment 1 (continued)


                         SECTION V - MATERIAL WEAKNESSES

Finding 1:     Substandard weatherization services may have been provided by ABC –
               Material Weakness

We conducted on-site visits to ten weatherized properties - nine single-family homes; and one
multi-family property with ten units to evaluate the quality of the weatherization work
performed. We were accompanied by an inspector from the State of New York’s Division of
Housing and Community Renewal (DHCR). During the on-site visit, the DHCR inspector noted
deficiencies in the quality of weatherization services performed on five of the nine single-family
homes selected. The DHCR inspector categorized three of the homes/units as having major
items requiring call-backs. Specifically, the inspector noted that: additional energy savings could
be obtained by insulating the attic knee wall floors and walls in the front of one home; an
infrared scan revealed that there were a number of empty wall cavities in the second floor walls
on another home/unit; and, there was a large opening in the basement ceiling in another home
unit that needed to be sealed. In addition, the DHCR inspector requested that ABC personnel
return to another home/unit to address a couple of health and safety issues. In this instance,
spray foam was installed around the hot water vent pipe and the dryer vent. According to the
DHCR inspector, State code does not allow foam to be used in these instances.

According to the New York State Weatherization Assistance Program Policy and Procedures
Manual, sub-grantees, such as ABC, are required to conduct a post-inspection of completed
units/homes before presenting them to DHCR for certification. The Manual also requires sub-
grantees to inspect the quality and quantity of materials installed; installation standards and
quality of work performed; and health and safety tests, at a minimum.

ABC’s management stated that its inspectors performed post-inspection on all homes/units
weatherized, and that the deficiencies noted during our site visit happened subsequent to their
post-inspections. They presented the Building Work Summary, approved by the
owners/occupants, as evidence of the quality of the weatherization they had performed on the
homes/units. However, the deficiencies noted by the DHCR inspector, who accompanied us to
the site visit, such as incomplete installation of insulation, indicated that the post-inspection
performed by ABC inspectors was inadequate and that the inspectors may require training. The
DHCR inspector stated that the homes/units that we selected for inspection during our site visit
did not include any of the homes/units that DHCR had selected and inspected as part of their
sample during their certification process for weatherized homes/units presented by ABC for
certification.

As a result of the condition noted above, substandard weatherization services may have been
provided by ABC and not detected by DHCR. Also, ABC may have billed and received
Program funds for substandard weatherization services, to which they were not entitled, thereby
resulting in the waste of Weatherization Program funds.




                                                                                                    6
                                                                         Attachment 1 (continued)


It is important to note that the Department has issued Weatherization Program Notice 11-03 –
POLICY REGARDING THE USE OF DOE PROGRAM FUNDS TO PAY FOR CALL-
BACK/ADD-ON WORK AFTER REPORTED TO DOE AS A COMPLETED UNIT. The
purpose of this Program Notice is to clarify if and when Grantees may charge the Weatherization
Program for call-backs once a dwelling has been final inspected and reported to the Department
as a completed dwelling unit. This Program Notice clearly states that paying for additional work
on homes that have already been reported to the Department is not a permissible use of
Weatherization Program funds. This Program Notice affects all units weatherized after January
10, 2011. Therefore, since the above units were reported as completed prior to January 10, 2011,
both the Department and DHCR believe that the homes/units noted above will be permitted to
use Weatherization Program funds for the call-backs.

Recommendations:
We recommend that ABC:

1.1 Address weatherization deficiencies noted by the DHCR inspector.

1.2 Ensure that its post work inspectors are properly trained to perform post-inspections of
    weatherized homes/units.

1.3 Develop and implement policies and procedures to conform to the new Weatherization
    Program Notice 11-03 and ensure that future call-backs are not funded with Weatherization
    Program funds.

Management Comments and Auditors’ Analysis
ABC’s management concurred with the finding and recommendations, and has revised its post
inspection process. ABC’s management has also implemented new procedures designed to
ensure comprehensive and consistent work quality.

We consider ABC management’s action to be adequate.




                                                                                                7
                                                                         Attachment 1 (continued)


                       SECTION VI - SIGNIFICANT DEFICIENCIES

Finding 2:     Purchases made with Program funds did not comply with the State of New
               York’s policies and procedures - Significant Deficiency

Our review of a sample of 15 purchases made by ABC showed that ABC did not obtain at least
three bids each on two purchases totaling about $6,200, as required by the State of New York’s
Weatherization Assistance Program Policies and Procedures Manual. Specifically, we noted that
ABC purchased furniture from a supplier for about $3,500 and $2,700 of telephone and internet
wiring for new office space, without any documentation to support that at least three bids were
obtained, or that price comparisons from three vendors were performed. In accordance with the
Manual, a minimum of three price quotations must be obtained for purchases of $2,000 or more
in aggregate, or up to $5,000 over the duration of each annual budget period.

Additionally, for the $3,500 furniture purchase, no evidence was available indicating that the
DHCR regional supervisor had approved the purchase as required by the Manual. This purchase
should be reviewed, either as a part of the annual budget approval process, at the start of a budget
period, or during the course of the annual budget period.

ABC’s management agreed that adequate oversight was not provided over the purchases and that
controls in place were not adequate to ensure that purchasing employees comply with the State
of New York’s purchasing policies and procedures.

As a result of the condition noted above, ABC could not demonstrate that best value was
received for the purchases made with Weatherization Program funds. Also, ABC was not in
compliance with the applicable purchasing regulations, which increases the risk of waste or
abuse.

Recommendation:
2.1 We recommend that ABC develop procedures to ensure that purchasing employees comply
    with the State of New York purchasing policies and procedures.

Management Comments and Auditors’ Analysis
ABC’s management concurred partially with the finding and recommendation, and has revised
its purchasing policy to require price comparisons from three vendors, and ensure that the
approval of the DHCR Regional supervisor is obtained.

We consider ABC management’s action to be adequate.




                                                                                                  8
                                                                        Attachment 1 (continued)


Finding 3:     Non-interest-bearing account was maintained for Program funds -
               Significant Deficiency

ABC received a cash advance of $1,147,618 from the State of New York Recovery Act
Weatherization Program funds, but did not deposit the funds into an interest-bearing account, as
required by 10 CFR 600, Federal Financial Assistance Regulation. This regulation requires that
recipients maintain advance payments of Federal funds in interest-bearing accounts and remit,
annually, the interest earned to the contracting officer for return to the Department of Treasury.

ABC’s management stated that they were aware of the requirement to establish and maintain an
interest-bearing account for funds advanced for the Recovery Act Weatherization Program.
However, they did not deposit the advanced funds in an interest-bearing account because they
believed that the funds would not have been insured by the Federal Deposit Insurance
Corporation (FDIC), if deposited into an interest-bearing account. Also, the State of New York
Weatherization Assistance Program Policies and Procedures Manual does not require advances
to be put into an interest-bearing account. However, the State of New York Weatherization
Assistance Program Policies and Procedures Manual does require interest earned on such funds
to be returned to the Treasury.

As a result of the condition noted above, the Federal government did not receive income from
interest that could have been generated on advanced funds. Also, the State of New York is not in
compliance with the Federal Financial Assistance Regulation, which requires advanced funds to
be placed in an interest-bearing account.

Recommendations:
3.1 We recommend that ABC establish and maintain an interest-bearing account for cash
    advances received from the Weatherization Program.

3.2 We recommend that the State of New York revise its Weatherization Assistance Program
    Policies and Procedures Manual to require sub-grantees to place advanced funds in interest-
    bearing accounts.

Management Comments and Auditors’ Analysis
ABC’s management concurred with the finding, but contends that it was following guidance
provided in the State of New York’s Weatherization Assistance Program Policies and Procedures
Manual. ABC’s management also indicated that the cost of maintaining an interest-bearing
account would not justify the benefit of maintaining such account, based on advice from its bank.

We consider ABC management’s response to be inadequate. ABC’s management should
implement the recommended action.




                                                                                                  9
                                                                        Attachment 1 (continued)


                         SECTION VII - ADVISORY COMMENTS

Finding 4:     Lack of adequate segregation of duties in the process for determining
               owner/occupant eligibility for weatherization - Advisory Comment

Eligibility determinations made by the ABC employee responsible for accepting Weatherization
Program participants’ applications were not reviewed and approved by someone other than the
employee.

OMB Circular A-133, Compliance Supplement, defines control activities as the policies and
procedures that help ensure that management directives are carried out; among these are ensuring
that adequate segregation of duties are provided between performance, review, and
recordkeeping of a task. Also, according to OMB Circular A-110 Section 21 (b)(3), the sub-
grantee’s financial management system shall provide effective control over and accountability
for all funds, property and other assets.

Management oversight over the activities of the employee responsible for accepting
Weatherization Program participants’ applications was not adequate to ensure segregation of
incompatible duties, such as receiving application and approving eligibility.

As a result of the condition noted above, ineligible participants may have been approved to
receive weatherization services to which they were not entitled, thus resulting in waste or abuse
of Program funds.

Recommendation:
4.1 We recommend that ABC’s management develop a procedure for the eligibility
    determination that ensures that the eligibility determinations are reviewed by management.

Management Comments and Auditors’ Analysis
ABC’s management concurred with the finding and recommendation, and has instituted policies
and procedures that will ensure adequate segregation of duties in the eligibility determination
process.

We consider ABC management’s action to be adequate.




                                                                                                 10
                                                                       Attachment 1 (continued)


Finding 5:    Documentation was not maintained to support that the homes/units selected
              for weatherization had not been weatherized after September 30, 1994 with
              Department funds - Advisory Comment

ABC used information from New York State automated systems to determine compliance with
the requirement to ensure that homes/units being considered for weatherization had not been
weatherized after September 30, 1994 with Department Weatherization Program funds.
However, no documentation was maintained to support that such a determination was made on
the homes/units weatherized; but the ABC personnel responsible for reviewing the information
and making determinations on eligibility represented that the reviews were performed.

Under the Recovery Act and Departmental requirements, weatherization service providers are
required to ensure that homes/units weatherized using Weatherization Program funding after
September 30, 1994 do not receive additional weatherization assistance unless the home/unit has
been damaged by fire, flood or act of God, and repair or damage to weatherization materials is
not paid for by insurance. The Department of Energy's Office of Weatherization and
Intergovernmental Programs was very clear that grantees and sub-grantees are required to ensure
that a “duplicate application check” is performed for every address deemed eligible to determine
that weatherization services had not been provided after September 30, 1994.

Under 10 CFR Part 440, each grantee or sub-grantee receiving Federal financial assistance under
the Weatherization Program is required to keep such records as the Department deems necessary,
for an effective audit and performance evaluation.

The ABC employee who reviewed the home/unit eligibility information in the State automated
systems was not aware that the documentation to support that the homes/units were not
weatherized subsequent to September 30, 1994 should have been maintained as proof of
verification.

As a result of the condition noted above, ineligible homes/units may have been weatherized in
error, resulting in waste or abuse of Program funds.

Recommendation:
5.1 We recommend that ABC maintain documentation showing how the eligibility determination
    was made for homes/units to be weatherized.

Management Comments and Auditors’ Analysis
ABC’s management concurred with the finding and recommendation, and has revised its policies
and procedures to require that records are maintained that supports eligibility determination.

We consider ABC management’s action to be adequate.




                                                                                                11
                                                                       Attachment 1 (continued)


Finding 6:    Documentation supporting authorization and approval of reimbursements
              was not maintained - Advisory Comment

During our cash test work, we noted that, in all instances of reimbursements reviewed, the
employee who performed the reimbursements did not sign and date the forms used to draw down
Recovery Act funds. Hence, we could not determine whether the reimbursements were properly
authorized.

The Common Rule, OMB Circular A-102 and OMB Circular A-110 (2 CFR part 215) require
non-Federal entities receiving Federal awards, such as ABC, to establish and maintain internal
controls designed to reasonably ensure compliance with Federal laws, regulations, and Program
compliance requirements. Also, adequate internal control practice requires segregation of duties
relating to recording keeping, approval, and custodial functions.

ABC’s management stated that they were not aware of the need to implement additional internal
control procedures, which would require an employee to sign and date the forms after a
reimbursement was performed, to indicate proper authorization of the reimbursement. Also,
ABC’s Chief Financial Officer stated that there was a lack of management oversight and that it
would be corrected in the future.

As a result of the condition noted above, unauthorized reimbursements may have been made by
ABC employees, resulting in violation of Weatherization Program laws and regulations.

Recommendation:
6.1 We recommend that ABC establish and maintain control procedures to ensure proper
    authorization of its monthly cash reimbursements.

Management Comments and Auditors’ Analysis
ABC’s management concurred with the finding and recommendation, and has revised its funds
transfer policy to require the signature of the individual making the transfer.

We consider ABC management’s action to be adequate.




                                                                                              12
                                      Attachment 1 (continued)


SECTION VIII - GRANTEE’S RESPONSE (FULL TEXT)




                                                           13
Attachment 1 (continued)




                     14
Attachment 1 (continued)




                     15
Attachment 2
Attachment 2 (continued)
Attachment 2 (continued)
Attachment 2 (continued)
Attachment 2 (continued)
Attachment 2 (continued)
Attachment 2 (continued)
Attachment 2 (continued)
Attachment 2 (continued)
Attachment 2 (continued)
Attachment 3
Attachment 3 (continued)
Attachment 3 (continued)
Attachment 3 (continued)
                                                                 IG Report No. OAS-RA-11-21


                             CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the back
of this form, you may suggest improvements to enhance the effectiveness of future reports.
Please include answers to the following questions if they are applicable to you:

   1. What additional background information about the selection, scheduling, scope, or
      procedures of the audit would have been helpful to the reader in understanding this
      report?

   2. What additional information related to findings and recommendations could have been
      included in the report to assist management in implementing corrective actions?

   3. What format, stylistic, or organizational changes might have made this report's overall
      message more clear to the reader?

   4. What additional actions could the Office of Inspector General have taken on the issues
      discussed in this report which would have been helpful?

   5. Please include your name and telephone number so that we may contact you should we
      have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:


                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

      Your comments would be appreciated and can be provided on the Customer Response Form.
